TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    The Employer’s ANNUAL Federal Tax
                  Return (Form 944) Program Was Effectively
                    Planned and Implemented, but Fewer
                     Returns Than Anticipated Were Filed



                                      September 17, 2007

                              Reference Number: 2007-30-182




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                    DEPARTMENT OF THE TREASURY
                                                          WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                 September 17, 2007


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT
                DEPUTY COMMISSIONER FOR SERVICES AND
                ENFORCEMENT


 FROM:                   (for) Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – The Employer’s ANNUAL Federal Tax Return
                                 (Form 944) Program Was Effectively Planned and Implemented, but
                                 Fewer Returns Than Anticipated Were Filed (Audit # 200730017)

 This report presents the results of our review of the development and implementation of the
 Employer’s ANNUAL Federal Tax Return (Form 944) Program. The overall objective of this
 review was to determine whether the Internal Revenue Service (IRS) adequately prepared to
 process Forms 944 during the 2007 Filing Season1 and to evaluate the effectiveness of processing
 activities. This audit was part of our discretionary audit coverage of the Small Business/
 Self-Employed Division and was included in the Treasury Inspector General for Tax
 Administration Fiscal Year 2007 Annual Audit Plan.

 Impact on the Taxpayer
 In 2006, the IRS introduced Form 944 to allow certain employers to file their employment tax
 returns annually and pay the taxes due with their returns. The IRS’ goals for the new Form 944
 Program are to reduce taxpayer burden for eligible employers that would normally file
 Employer’s QUARTERLY Federal Tax Return(s) (Form 941) with little or no employment taxes
 due and to maintain and possibly improve current filing and payment compliance levels. The
 IRS estimated about 1 million taxpayers would be eligible to file Forms 944, which could save
 approximately 46.2 million hours of burden for taxpayers and representatives and save more than
 $4.1 million in IRS operating costs.


 1
     The filing season is the period from January through mid-April when most individual income tax returns are filed.
                  The Employer’s ANNUAL Federal Tax Return (Form 944) Program
                       Was Effectively Planned and Implemented, but Fewer
                               Returns Than Anticipated Were Filed



Synopsis
The IRS took appropriate actions to plan and implement new Form 944 for the 2007 Filing
Season. It identified and notified the taxpayers eligible to file a Form 944 and mailed nearly
517,000 tax packages to them in December 2006. It also established procedures to inform new
taxpayers of the filing requirements when applying for an Employer Identification Number.2 The
IRS computers were updated, programmed, and tested to process Forms 944. In addition, the
IRS ensured tax examiners were adequately trained on the new filing requirements to address
taxpayers’ inquiries and questions.
While the Office of Taxpayer Burden Reduction (Project Office) effectively planned and
implemented the Form 944 Program, the IRS did not receive the anticipated volume of returns.
It had estimated about 1 million taxpayers would be eligible to file Forms 944, which would save
the IRS more than $4.1 million in operating costs. However, as of June 1, 2007, the IRS had
received only about 326,000 Forms 944. Prior to implementing the Form 944 Program in 2006,
the IRS had changed the Program requirements (in 2005) by reducing the employment tax
liability amount from $2,500 to $1,000 and no longer requiring taxpayers to have filed
8 consecutive quarters of Forms 941. Adjusting the eligibility requirements increased the
number of taxpayers eligible to file a Form 944 from 350,598 to 1,152,510. However, without
using taxpayers’ filing histories, it is difficult for the IRS to accurately estimate the number of
taxpayers that will file a Form 944 each year, especially when these taxpayers may not have
employment tax liabilities every year.
In addition, the Project Office is still analyzing filing data, tracking actual costs, and reviewing
stakeholder input to evaluate benefits and to determine costs. By September 2007, the Project
Office needs to determine whether the Form 944 Program should continue as developed,
continue with modifications such as changing the eligibility limit, or be discontinued after Tax
Year 2008. Although we made no recommendations, the IRS might consider the following in its
evaluation effort:
    •   Obtain more information on the target population to assist in Program adjustments.
    •   Capture actual costs for evaluating Program results and future actions.
    •   Contact stakeholders to obtain other opinions on the success of the Form 944 Program.




2
 The Employer Identification Number is a nine-digit number assigned by the IRS to sole proprietors, corporations,
partnerships, estates, trusts, and other nonindividual entities for tax-filing and reporting purposes.



                                                                                                                    2
               The Employer’s ANNUAL Federal Tax Return (Form 944) Program
                    Was Effectively Planned and Implemented, but Fewer
                            Returns Than Anticipated Were Filed



Recommendation
We made no recommendations in this report. However, key IRS management officials reviewed
the report prior to issuance and agreed with the facts and conclusions.
Copies of this report are also being sent to the IRS managers affected by the report information.
Please contact me at (202) 622-6510 if you have questions or Daniel R. Devlin, Assistant
Inspector General for Audit (Small Business and Corporate Programs), at (202) 622-5894.




                                                                                                    3
                     The Employer’s ANNUAL Federal Tax Return (Form 944) Program
                          Was Effectively Planned and Implemented, but Fewer
                                  Returns Than Anticipated Were Filed




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Implementation of the New Employment Tax Return Was Effectively
          Planned and Monitored .................................................................................Page 3
          System and Processing Changes to Handle the New Employment
          Tax Return Were Successfully Implemented ...............................................Page 4
          The Volume of Forms 944 Received Fell Short of Expectations .................Page 5

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 7
          Appendix II – Major Contributors to This Report ........................................Page 10
          Appendix III – Report Distribution List .......................................................Page 11
      The Employer’s ANNUAL Federal Tax Return (Form 944) Program
           Was Effectively Planned and Implemented, but Fewer
                   Returns Than Anticipated Were Filed




                     Abbreviations

IRS            Internal Revenue Service
                  The Employer’s ANNUAL Federal Tax Return (Form 944) Program
                       Was Effectively Planned and Implemented, but Fewer
                               Returns Than Anticipated Were Filed




                                            Background

In 2006, the Internal Revenue Service (IRS) introduced           The Employer’s ANNUAL
a new employment tax1 form to reduce the burden for            Federal Tax Return (Form 944)
small employers. By establishing new rules and                  Program aims to reduce the
processes, the IRS would allow certain employers to file       burden  and cost for low-wage,
                                                              small-business employers filing
their employment tax returns annually and pay the taxes          Employer’s QUARTERLY
due with their returns. The new Employer’s ANNUAL            Federal Tax Returns (Form 941).
Federal Tax Return (Form 944) Program allows certain
taxpayers to file and pay employment taxes on
January 31 following the end of the tax year rather than quarterly, as previously required. To be
eligible, employers must have an estimated annual employment tax liability of $1,000 or less.
New employers who expect to owe $1,000 or less (approximately $4,000 or less in annual
wages) also are eligible to file a Form 944. New businesses can self-identify themselves for the
annual filing/payment Program when they request an Employer Identification Number.2
The Small Business/Self-Employed Division, Office of Taxpayer Burden Reduction, was
responsible for implementing the Form 944 Program, which is operating under temporary
regulations for 3 years to test the concept of annualizing the Employer’s QUARTERLY Federal
Tax Return (Form 941) quarterly filing requirement for certain taxpayers. The first Forms 944
were due January 31, 2007.
The IRS’ goals for the new Form 944 Program are to reduce taxpayer burden for eligible
employers that would normally file Form(s) 941 with little or no employment taxes due and to
maintain and possibly improve current filing and payment compliance levels.
Figure 1 shows the results of the IRS’ analysis of Form 941 return data using different dollar
amounts of employment tax liabilities to identify potential cost savings and taxpayers eligible to
participate in the Form 944 Program.




1
  Employment taxes include Federal income tax withholdings, Social Security taxes (both the employer’s and
employee’s share), and Medicare payments, which employers reported on Employer’s QUARTERLY Federal Tax
Returns (Form 941).
2
  The Employer Identification Number is a nine-digit number assigned by the IRS to sole proprietors, corporations,
partnerships, estates, trusts, and other nonindividual entities for tax-filing and reporting purposes.
                                                                                                           Page 1
                The Employer’s ANNUAL Federal Tax Return (Form 944) Program
                     Was Effectively Planned and Implemented, but Fewer
                             Returns Than Anticipated Were Filed


                                Figure 1: Summary of Savings
                      Tax Liability (less
                                                 Taxpayers               Savings
                             than)
                             $500                     947,423            $3,381,786
                             $750                   1,049,967            $3,746,526
                            $1,000                  1,152,510            $4,111,263
                            $1,500                  1,334,093            $4,757,139
                          $2,500 and
                       Compliant With
                     Filing Forms 941 for
                          8 Quarters                  350,598            $1,258,930
                    Source: IRS Annual File and Pay Costing (11/2004).

The IRS established a tax liability eligibility requirement at $1,000 or less. Selecting the $1,000
tax liability requirement was a conservative start; based on experience gained over 3 years, the
IRS could raise or lower the amount or terminate the Program.
This review was performed at the Office of Taxpayer Burden Reduction in
Downers Grove, Illinois, during the period January through September 2007. The audit was
conducted in accordance with Government Auditing Standards. Detailed information on our
audit objective, scope, and methodology is presented in Appendix I. Major contributors to the
report are listed in Appendix II.




                                                                                             Page 2
                  The Employer’s ANNUAL Federal Tax Return (Form 944) Program
                       Was Effectively Planned and Implemented, but Fewer
                               Returns Than Anticipated Were Filed




                                      Results of Review

The Small Business/Self-Employed Division took appropriate actions to plan and implement the
new employment tax return (Form 944) for the 2007 Filing Season.3 The IRS identified and
notified the taxpayers eligible to file a Form 944 and mailed nearly 517,000 packages to them in
December 2006. In addition, it established procedures to inform new taxpayers of the filing
requirements when applying for an Employer Identification Number. The IRS computers were
updated, programmed, and tested to process Forms 944. The IRS also ensured tax examiners
were adequately trained on the new filing requirements to address taxpayers’ inquiries and
questions.
While the Office of Taxpayer Burden Reduction (Project Office) effectively planned and
implemented the Form 944 Program, the IRS did not receive the anticipated volume of returns.
It had estimated about 1 million taxpayers would be eligible to file Forms 944, which would save
approximately 46.2 million hours of burden for taxpayers and representatives and save more than
$4.1 million in IRS operating costs. However, as of June 1, 2007, the IRS had received only
about 326,000 Forms 944. It is difficult for the IRS to accurately estimate the number of returns
that will be filed because these taxpayers may not have employment tax liabilities every year.
The Project Office used a Project Management Plan to guide the project team throughout the
duration of the project. The Plan describes the approach to developing a successful system that
meets users’ expectations regarding timeliness, cost, quality, scope and function. The Plan also
defines project management processes including risk management, configuration management,
communication management, and quality management.

Implementation of the New Employment Tax Return Was Effectively
Planned and Monitored
The Project Office initiated the Form 944 Program in November 2003, developed an action plan
to track and monitor the Program’s implementation, assigned tasks to employees from various
business functions to ensure specific actions were completed correctly and timely, and used a
Work Breakdown Structure4 to monitor the status of the tasks and biweekly meetings to check
with employees responsible for completing the actions for the Program. It prepared biweekly
status reports showing the progress of the tasks. These reports were rolled up into monthly



3
 The filing season is the period from January through mid-April when most individual income tax returns are filed.
4
 The Work Breakdown Structure is a Microsoft Office Project Professional 2003 system used to control and
monitor the status of work assignments.
                                                                                                           Page 3
                   The Employer’s ANNUAL Federal Tax Return (Form 944) Program
                        Was Effectively Planned and Implemented, but Fewer
                                Returns Than Anticipated Were Filed


summary reports and were available to management through the Risk Management Group5
process. As tasks were completed, the information gained was updated into the Work
Breakdown Structure.
Other actions included developing the new Form 944 and providing instructions in both English
and Spanish. The Project Office also developed taxpayer notification letters, electronic filing
and payment stuffers, and a series of notices to remove taxpayers from the Form 944 Program
when they exceeded the eligibility limit. In addition, it oversaw the updating of related IRS
publications and revisions to more than 50 Internal Revenue Manual sections.

System and Processing Changes to Handle the New Employment Tax
Return Were Successfully Implemented
The Project Office effectively managed and controlled the work needed to make systemic
changes to process Forms 944. The IRS updated 40 computer programs and tested the ability of
of its computer systems to process Forms 944. After evaluation of the overall Program is
completed, the functional business owners will become responsible for managing the Form 944
Program.
The Project Office also continued coordination activities with other Government agencies and
professional organizations and held various briefings with IRS executives. It obtained approval
of Temporary Regulations6 in December 2005 and initiated an evaluation study by IRS functions
to determine the success of the new initiative in reducing taxpayer burden.
As a result of the implementation efforts, the IRS successfully processed the Forms 944
submitted by employers in both paper and electronic form.




5
  The monthly Risk Management Group meeting allows project managers to report the status of their projects and to
elevate risks/issues they are unable to resolve independently (or through their management chains). If risks or issues
are not resolved during the Risk Management Group meeting, action items are assigned during the meeting to work
toward resolving them.
6
  The Temporary Regulations established the Form 944 Program and Internal Revenue Code Sections 6011 and
6302 (2006) concerning reporting and paying income taxes withheld from wages and reporting and paying taxes
under the Federal Insurance Contributions Act (26 U.S.C. Section 3101 (1939)) (collectively, “employment taxes”).
These Temporary Regulations provide the requirements for filing returns under this Act and returns with income tax
withheld under Internal Revenue Code Section 6011 and Sections 31.6011(a)-1 and 31.6011(a)-4 of the
Employment Tax Regulations (2006).
                                                                                                              Page 4
                 The Employer’s ANNUAL Federal Tax Return (Form 944) Program
                      Was Effectively Planned and Implemented, but Fewer
                              Returns Than Anticipated Were Filed


The Volume of Forms 944 Received Fell Short of Expectations
While the Project Office effectively planned and implemented the Form 944 Program, the IRS
did not receive the anticipated volume of returns. As of June 1, 2007, the IRS had received
about 326,000 Forms 944, including 11,000 electronically filed returns, and had processed about
312,000 of the Forms. The original Program requirements were changed in 2005 to reduce the
employment tax liability amount from $2,500 to $1,000 and to no longer require taxpayers to
have filed 8 consecutive quarters of Forms 941. Adjusting the eligibility requirements increased
the number of taxpayers eligible to file a Form 944 from 350,598 to 1,152,510. However,
without using taxpayers’ filing histories, it is difficult for the IRS to accurately estimate the
number of taxpayers that will file a Form 944 each year.
The original Form 944 Program proposal was structured with the following criteria: each
taxpayer had to have a total employment tax liability of less than $2,500 and demonstrate at least
8 consistent quarters of filing employment tax returns and making payments. However, as the
Project Office began to work on the initiative, it became apparent that this proposal was too
complex for both the taxpayer and the IRS. On January 10, 2005, the Services Support and
Modernization Committee7 approved a simpler Program that eliminated the compliance
condition and changed the eligibility criterion to an annual employment tax liability threshold of
$1,000 or less. For future projections, the IRS may want to consider using taxpayers’ previous
filing histories.
The Project Office is preparing an evaluation of the Form 944 Program for a September 2007
presentation to IRS executives. It is identifying filing results from participating employers and is
using the Program costs to match against its projected estimates and to provide cost information
for evaluating the continuation of the Form 944 Program. In addition, the Project Office
requested Taxpayer Delinquency Investigation8 information to determine whether the lack of
filing compliance was attributable to status changes causing the employers to no longer need to
file employment tax returns. Because this activity is ongoing, the IRS evaluation of the
Form 944 Program filing results was not completed at the time of our review.
By September 2007, the Program Office needs to determine whether the Form 944 Program
should continue as developed, continue with modifications such as changing the eligibility limit,
or be discontinued after Tax Year 2008. Although we made no recommendations, the IRS might
consider the following in its evaluation effort:

7
  This Committee oversees the development and implementation of programs required to support IRS business
needs.
8
  A computer-generated printout indicating that a taxpayer is delinquent in filing a return.




                                                                                                       Page 5
            The Employer’s ANNUAL Federal Tax Return (Form 944) Program
                 Was Effectively Planned and Implemented, but Fewer
                         Returns Than Anticipated Were Filed


•   Obtain more information on the target population to assist in Program adjustments.
•   Capture actual costs for evaluating Program results and future actions.
•   Contact stakeholders to obtain other opinions on the success of the Form 944 Program.




                                                                                     Page 6
                  The Employer’s ANNUAL Federal Tax Return (Form 944) Program
                       Was Effectively Planned and Implemented, but Fewer
                               Returns Than Anticipated Were Filed


                                                                                                  Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS adequately prepared to
process Employer’s ANNUAL Federal Tax Returns (Form 944) during the 2007 Filing Season1
and to evaluate the effectiveness of processing activities.2 To accomplish the objective, we
visited the Form 944 Program Project Office in Downers Grove, Illinois, and contacted other IRS
personnel to evaluate the effectiveness of Program implementation activities. Specifically, we:
I.      Evaluated the actions taken by the IRS to identify and notify the taxpayers eligible to file
        a Form 944.
        A. Discussed with Office of Taxpayer Burden Reduction personnel and reviewed project
           records as to whether the IRS had reviewed the low-dollar employment tax
           population to identify a group that could benefit from the new filing requirements.
        B. Reviewed cost savings (identified by the IRS) associated with taxpayers selected to
           file a Form 944.
        C. Identified actions taken to notify eligible taxpayers that they were selected to file a
           Form 944.
II.     Determined whether the appropriate forms and instructions were sent to the taxpayers
        eligible to file a Form 944.
        A. Contacted Media and Publications office personnel and reviewed available records
           regarding whether the IRS had provided Form 944 packages to the eligible taxpayers.
        B. Analyzed the IRS Business Master File3 for Processing Year 2006 and identified
           eligible taxpayers that did not file a Form 944. The data were extracted and validated
           by programmers in our Office of Information Technology using run-to-run balancing.
        C. Analyzed the Integrated Data Retrieval System4 and determined whether employers
           were required to file or failed to file the proper form.



1
  The filing season is the period from January through mid-April when most individual income tax returns are filed.
2
  In 2006, the IRS introduced a new employment tax return (Form 944) to allow certain employers to file their
employment tax returns annually and pay the taxes due with their returns.
3
  The IRS database that consists of Federal tax-related transactions and accounts for businesses. These include
employment taxes, income taxes on businesses, and excise taxes.
4
  The IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
                                                                                                            Page 7
                  The Employer’s ANNUAL Federal Tax Return (Form 944) Program
                       Was Effectively Planned and Implemented, but Fewer
                               Returns Than Anticipated Were Filed


III.    Identified actions taken by the IRS to educate new taxpayers applying for an Employer
        Identification Number5 about the filing requirements of Form 944.
        A. Determined whether the IRS had advertised Form 944 to eligible taxpayers.
        B. Analyzed the Business Master File for Processing Year 2006 and identified new
           taxpayers that filed a Form 944. The data were extracted and validated by
           programmers in our Office of Information Technology using run-to-run balancing.
IV.     Determined whether the IRS took adequate actions to ensure tax examiners were
        adequately trained to address taxpayers’ questions.
        A. Communicated with Customer Account Services function managers and reviewed
           training material concerning whether the IRS had trained personnel on the Form 944
           filing requirements.
        B. Identified training instructions and reference material covering Form 944.
        C. Verified whether managers and quality review personnel had monitored call activity.
V.      Determined whether appropriate IRS systems were updated, programmed, and tested to
        include Form 944.
        A. Evaluated whether the IRS implemented and tested program changes to allow the
           processing of Forms 944.
        B. Reviewed available information on whether the IRS processed Forms 944 submitted
           by eligible taxpayers.
        C. Analyzed the Business Master File for Processing Year 2006 to evaluate the account
           statuses of eligible taxpayers that filed a Form 944. The data were extracted and
           validated by programmers in our Office of Information Technology using run-to-run
           balancing.
        D. Discussed with Office of Taxpayer Burden Reduction staff and reviewed evaluation
           plans as to whether the IRS determined that the processing of Forms 944 had been
           successful and should be continued.
VI.     Determined whether the IRS established controls and procedures to identify taxpayers
        exceeding the tax liability threshold during the tax year.
        A. Assessed whether the IRS established a mechanism to identify eligible taxpayers
           exceeding the limit.



5
 The Employer Identification Number is a nine-digit number assigned by the IRS to sole proprietors, corporations,
partnerships, estates, trusts, and other nonindividual entities for tax-filing and reporting purposes.
                                                                                                          Page 8
        The Employer’s ANNUAL Federal Tax Return (Form 944) Program
             Was Effectively Planned and Implemented, but Fewer
                     Returns Than Anticipated Were Filed


B. Evaluated the actions taken to resolve the unpostable Forms 944 filed by taxpayers
   that incorrectly filed Forms 941 and did not opt out of the Form 944 Program.
C. Analyzed the Business Master File data and verified whether the IRS changed the
   filing requirements of taxpayers that had more than a $1,000 employment tax
   liability.




                                                                                 Page 9
               The Employer’s ANNUAL Federal Tax Return (Form 944) Program
                    Was Effectively Planned and Implemented, but Fewer
                            Returns Than Anticipated Were Filed


                                                                               Appendix II

                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Parker Pearson, Director
Edward Gorman, Audit Manager
Lawrence Smith, Senior Auditor
Lynn Rudolph, Senior Auditor
Judy Harrald, Information Technology Specialist




                                                                                        Page 10
              The Employer’s ANNUAL Federal Tax Return (Form 944) Program
                   Was Effectively Planned and Implemented, but Fewer
                           Returns Than Anticipated Were Filed


                                                                             Appendix III

                          Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Acting Chief of Staff C
Assistant Deputy Commissioner for Operations Support OS
Assistant Deputy Commissioner for Services and Enforcement SE
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Wage and Investment Division SE:W
Chief Information Officer OS:CIO
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Associate Chief Information Officer, Applications Development OS:CIO:AD
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, Examination, Small Business/Self-Employed Division SE:S:E
Director, Research, Small Business/Self-Employed Division SE:S:R
Director, Specialty Programs, Small Business/Self-Employed Division SE:S:SP
Director, Taxpayer Burden Reduction, Small Business/Self-Employed Division SE:S:TBR
Director, Media and Publications, Wage and Investment Division SE:W:CAR:MP
Director, Submission Processing, Chief Information Officer OS:CIO:AD:SP
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Director, Tax Forms and Publications, Wage and Investment Division SE:W:CAR:MP:T
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Wage and Investment Division SE:W




                                                                                     Page 11
